CERTIFICATE OF SERVICE
I, Charlotte H. Taylor, counsel for Applicant and a member of the Bar of this
Court, hereby certify that on the 9th day of July, 2019, a copy of this Application for
Extension of Time to File a Petition for a Writ of Certiorari in the above-captioned
case was mailed via UPS overnight to counsel for the respondent below. I further
certify that all parties required to be served have been served.

Gary W. Boyle
BOYLE LAW OFFICE
15 Spirit Court
Santa Fe, New Mexico 87506
(505) 989-5057
gary.boyle.boylelawoffice@gmail.com
Counsel for Respondent

/s/ Charlotte H. Taylor
CHARLOTTE H. TAYLOR
Counsel of Record
JONES DAY
51 Louisiana Avenue, NW
Washington, DC 20001-2113
(202) 879-3872
ctaylor@jonesday.com
Counsel for Applicant

